September 2005
Report No. 05-035




The FDIC’s Corporate University




           eral
        EVALUATION REPORT
                                                                                                       Report No: 05-035
                                                                                                        September 2005

                                    The FDIC’s Corporate University

                                    Results of Evaluation

                                    We evaluated CU’s implementation of training programs and developmental
                                    opportunities using the Government Accountability Office (GAO) Guide for Assessing
                                    Strategic Training and Development Efforts in the Federal Government, which presents
                                    core characteristics for successful T&D programs. Overall, we concluded that CU has
Background and Purpose of           addressed, to varying degrees, each of the following GAO core characteristics:
Evaluation
                                    •    Strategic alignment through CU’s organizational structure, oversight of CU by a
                                         senior executive Governing Board, establishment of a Chief Learning Officer (CLO),
Strategic human capital                  appointment of Deans for individual CU colleges, and CU participation in executive-
management centers on                    level meetings.
viewing people as assets
whose value to an organization      •    Leadership commitment and communication through FDIC Chairman and Chief
can be enhanced through                  Operating Officer (COO) communications on continuous learning, executive leadership
investment. One of the human             involvement in CU operations, and the Corporate Employee Program, which will
capital challenges facing the            cross-train employees in multiple business lines.
federal government is
successfully acquiring,
                                    •    Stakeholder involvement through periodic executive-level meetings to discuss CU
developing, and retaining talent.
                                         operations, an annual T&D assessment process, employee feedback, and targeted
Investing in and enhancing the
                                         reviews by inter-divisional teams referred to as Visiting Fellows.
value of employees through
training and development (T&D)
                                    •    Accountability and recognition through employee performance measurement
is a crucial part of addressing
                                         programs that have T&D-related criteria; tools for managing individual career
this challenge.
                                         development efforts, such as Career Development Plans and Individual Learning
                                         Accounts; and a focus on the importance of professional certifications.
In 2003, the FDIC established
the Corporate University (CU)
as a separate FDIC office to        •    Effective resource allocation through adequate staffing and funding of the T&D
serve as the corporate umbrella          program, an active role in the planning and budget process, a CU action plan with
over T&D, with responsibility for        measurable goals, and business plans supporting individual course offerings.
overseeing, coordinating, and
supporting the assessment,          •    Partnerships and learning from others through T&D offerings to other regulators
design, development, delivery,           and benchmarking against T&D industry sources. CU provided training to over 500
and evaluation of division and           students from other regulatory agencies during 2004.
office T&D programs.
                                    •    Data quality assurance through a Web-based training system. CU had recently
Our objective was to evaluate:           upgraded its training system and had not performed data testing; accordingly, we
(1) the degree to which CU has           did not evaluate data quality. The FDIC currently does not have a central repository
implemented training programs            to collect and evaluate employee competencies and skills. However, the FDIC’s
and other developmental                  2006 proposed budget includes funding to develop and implement a Corporate
opportunities to help the FDIC           Skills Survey/Database for the FDIC business line divisions.
build the competencies needed
to achieve its mission and          •    Continuous performance improvement through T&D offerings from initial employee
strategic goals and (2) the              orientation through leadership development and career management. CU has also
overall cost-effectiveness of the        developed a program to monitor and evaluate the success of CU initiatives.
CU structure in comparison to
initial goals and industry          With regard to cost-effectiveness of the CU structure, the FDIC’s 2005 budgeted T&D costs
benchmarks.                         were lower than 2002 budgeted training costs. Further, we determined that CU training
                                    costs, based on a percentage of payroll, were in line with industry benchmarks. CU’s ratio
                                    of training staff to employees was within the range of other selected banking regulators.
                                    Moreover, the FDIC’s ratio does not consider training that CU provides to non-FDIC
                                    employees.

                                    Recommendations

                                    Based on the overall positive results of our review and management initiatives already in
                                    progress, we are not making recommendations for CU or FDIC T&D program
                                    improvements.
To view the full report, go to
www.fdicig.gov/2005reports.asp
                                  TABLE OF CONTENTS


Background                                                              2

      Strategic Alignment                                               3

      Leadership Commitment and Communication                           5

      Stakeholder Involvement                                           7

      Accountability and Recognition                                    9

      Effective Resource Allocation                                    11

      Partnerships and Learning from Others                            13

      Data Quality Assurance                                           16

      Continuous Performance Improvement                               18

Corporation Comments and OIG Evaluation                                20

Appendix I: Objective, Scope, and Methodology                          21

Appendix II: Corporation Comments                                      22



TABLES:

Table 1: CU Organizational Responsibilities                             3

Table 2: CU-related Excerpts From the FDIC News                         6

Table 3: Visiting Fellows Report Topics                                 8

Table 4: CU Operating Budget and Actual Expenses                       11

Table 5: Changes in Selected CU Operating Budget Expenses              12

Table 6: CU Training Provided to Non-FDIC Employees During 2004        13

Table 7: 2002 CU Statistics and ASTD Benchmarking Data                 14

Table 8: 2005 CU Statistics and ASTD Benchmarking Data                 15

Table 9: Benchmark Information for Selected Bank Regulatory Agencies   15

Table 10: Categories of Courses that Evidence Continuous Learning      18



FIGURES:

Figure 1: CU Students Trained During 2004                               2

Figure 2: Revised CU Organizational Structure                           4
ACRONYMS


ASTD       American Society for Training and Development
CBC        Contribution-based Compensation
CBI        Computer-based Instruction
CDP        Career Development Plan
CE         Corporate Employee
CEP        Corporate Employee Program
CFO        Chief Financial Officer
CG         Corporate Graded
CLO        Chief Learning Officer
CM         Corporate Manager
COG        Course Oversight Group
COO        Chief Operating Officer
CSA        Corporate Success Award
CU         Corporate University
CUX        Corporate University Xchange
DIR        Division of Insurance and Research
DOA        Division of Administration
DOF        Division of Finance
DRR        Division of Resolutions and Receiverships
DSC        Division of Supervision and Consumer Protection
FDIC       Federal Deposit Insurance Corporation
FFIEC      Federal Financial Institutions Examination Council
GAO        Government Accountability Office
HRC        Human Resources Committee
ILA        Individual Learning Accounts
LMS        Learning Management System
OCC        Office of the Comptroller of the Currency
OICM       Office of Internal Control Management
OIG        Office of Inspector General
OTS        Office of Thrift Supervision
SME        Subject Matter Experts
TCSB       Training and Consulting Services Branch
TOC        Training Oversight Committee
T&D        Training and Development
TS         Training Server
Federal Deposit Insurance Corporation                                               Office of Audits
801 17th Street, NW, Washington, DC 20434                                           Office of Inspector General




DATE:                               September 21, 2005

MEMORANDUM TO:                      David C. Cooke
                                    Chief Learning Officer
                                    Corporate University



FROM:                               Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                    Assistant Inspector General for Audits

SUBJECT:                            The FDIC’s Corporate University
                                    (Report No. 05-035)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall evaluation results. This report contains no
recommendations. Your written response to a draft of this report is included as an appendix to
the report.

If you have questions concerning the report, please contact Stephen M. Beard, Deputy Assistant
Inspector General for Audits, at (202) 416-4217, or Marshall Gentry, Director, Corporate
Evaluations, at (202) 416-2919. We appreciate the courtesies extended to the evaluation staff.

Attachment
Federal Deposit Insurance Corporation                                        Office of Audits
801 17th Street, NW, Washington, DC 20434                                    Office of Inspector General

DATE:                               September 21, 2005

MEMORANDUM TO:                      David C. Cooke
                                    Chief Learning Officer
                                    Corporate University



FROM:                               Russell A. Rau
                                    Assistant Inspector General for Audits

SUBJECT:                            The FDIC’s Corporate University
                                    (Report No. 005-035)

This report presents the results of our evaluation of the Federal Deposit Insurance Corporation’s
(FDIC) Corporate University (CU). Strategic human capital management centers on viewing
people as assets whose value to an organization can be enhanced through investment. One of
the human capital challenges facing the federal government is successfully acquiring,
developing, and retaining talent. Investing in and enhancing the value of employees through
training and development (T&D) is a crucial part of addressing this challenge.

In early 2003, the FDIC established the CU as a separate FDIC office to serve as the corporate
umbrella over T&D with responsibility for overseeing, coordinating, and supporting the
assessment, design, development, delivery, and evaluation of division and office training and
development programs. CU replaced the Training and Consulting Services Branch (TCSB)
within the FDIC’s Division of Administration (DOA).

EVALUATION OBJECTIVE


Our objective was to evaluate: (1) the degree to which CU has implemented training programs
and other developmental opportunities to help the FDIC build the competencies needed to
achieve its mission and strategic goals and (2) the overall cost-effectiveness of the CU structure
in comparison to initial goals and industry benchmarks.

In March 2004, the Government Accountability Office (GAO) issued the Guide for Assessing
Strategic Training and Development Efforts in the Federal Government (GAO-04-546G) for
assessing how agencies plan, design, implement, and evaluate effective T&D programs that
contribute to improved organizational performance and enhanced employee skills and
competencies. We used this guide to evaluate CU.
                                                                                              Background



Background
In January 2001, and again in January 2003, the
GAO identified strategic human capital management                   Training can be defined as making
as a government-wide, high-risk area because of                     available to employees planned and
the lack of attention to this area in federal agencies.             coordinated educational programs of
Specifically, GAO reported that in the wake of                      instruction in professional, technical,
extensive downsizing during the early 1990s, done                   or other fields that are or will be related
                                                                    to the employee’s job responsibilities.
largely without sufficient consideration of the
strategic consequences, agencies were                               Development is generally considered
experiencing significant challenges to deploying the                to include training, structured on-the-
right skills, in the right places, at the right time.               job learning experiences, and
                                                                    education.
Agencies are also facing a growing number of
employees who are eligible for retirement and are             Source: GAO Report No. GAO-04-546G.
finding it difficult to fill certain mission-critical jobs, a
situation that could significantly drain agencies’
institutional knowledge. Other factors such as emerging security threats, rapidly evolving
technology, and dramatic shifts in the age and composition of the overall population exacerbate
the problem. Such factors increase the need for agencies to engage in strategic workforce
planning to transform their workforces so that they will be effective in the 21st century.

In April 2002, an interdivisional task force and a number of subgroups were formed by the
FDIC’s Human Resources Committee (HRC) to conduct research into recognized corporate
universities and to investigate new ways to provide learning and developmental opportunities to
meet the FDIC’s unique needs. Based on its research, the task force created a plan for the
establishment of the CU.

The goals of establishing the CU were to (1) promote a corporate identity so that employees
understand the FDIC’s mission and are better able to work as a team; (2) enhance each
employee’s performance of his or her primary job assignments; and (3) broaden employees’
awareness of the FDIC’s major business lines so that the FDIC can adapt quickly and effectively
to changing workload priorities. Based on the results of the task force’s efforts, the Corporation
launched the CU in early 2003 to
serve as the training and employee           Figure 1: CU Students Trained During 2004
development arm of the FDIC.                                                         C la s s ro o m ,
                                                    S e lf S t udy, 5 6                               6 ,7 4 4

During 2004, the CU provided
training to more than 15,600
students. Figure 1 presents
information on the course
participants during 2004.

                                                                                              C o nf e re nc e ,
                                                                                                    12 2
                                              C o m put e r-
                                            ba s e d t ra ining,
                                                   8 ,7 18


                                       Source: CU.




                                                      2
                                                                                      Evaluation Results



Strategic Alignment

    Core Characteristic: Clear linkages exist between the agency’s mission, goals, and
    culture and its training and development efforts. The agency’s mission and goals drive a
    strategic training and development approach and help ensure that the agency takes full
    advantage of an optimal mix of strategies to improve performance and enhance capacity
    to meet new and emerging challenges.
                                                                      Source: GAO-04-546G.


The FDIC is achieving strategic alignment through ongoing monitoring of the CU by a Governing
Board and Deans for each school; involving the Chief Learning Officer (CLO) in corporate
planning and budgeting, HRC, and operating committee meetings; and using a training analysis
plan to help ensure that new course proposals are consistent with the corporate mission and
goals.

The CU Organization and Structure

The FDIC established the CU to serve as the organization responsible for overseeing and
supporting all FDIC T&D programs in order to achieve business results by improving employee
and organizational performance. At the onset of our review, the CU was organized into five
schools: a school of resolutions and receiverships, a school of supervision and consumer
protection, a school of insurance, a school of leadership development, and a school of
corporate operations. The CU governance structure included:

•     a CU Governing Board (consisting of the Chief Operating Officer (COO), Chief Financial
      Officer (CFO), CLO, and all division directors and selected other executives) to provide
      direction and leadership to ensure consistency with corporate objectives;

•     a CLO and Deputy CLO to direct the daily operation of the CU; and

•     Deans for each school who ensure the integration and alignment of CU activities with the
      interests of FDIC operating units.

Table 1 presents Governing Board, CLO, and Dean responsibilities:

Table 1: CU Organizational Responsibilities
        Governing Board                            CLO                                         Deans
• Review and approve               • Direct the daily operation of CU.   • Identify opportunities to support business line
  initiatives for alignment with                                           and leadership objectives.
  strategic direction.             • In consultation with the CU
                                     Deans, provide strategic            • Interpret business line strategies and
• Prioritize current and future      guidance and direction to the         objectives.
  education/training needs.          Chiefs for the five schools.
                                                                         • Work with corporate executives, managers,
• Establish training standards     • Recommend strategic direction         and employees to assess current and
  to ensure quality products.        for corporate learning.               anticipated future T&D needs.
• Evaluate budgets against         • Build internal and external         • In collaboration with the CLO, recommend to
  performance outcomes.              alliances and partnerships.           the Governing Board the allocation and
                                                                           prioritization of T&D resources.
• Prioritize business-line         • Measure the business impact of
  requests for new T&D               learning.                           • Identify and recommend to CU cross-
  programs.                                                                divisional training opportunities.
Source: FDIC Training and Development Policy.




                                                            3
                                                                    Evaluation Results



In April 2005, CU announced a reorganization that merged the business line schools into one
college; converted the five collateral-duty Dean positions to three Dean positions (two full-time
and one-collateral duty); and created new, full-time, rotational subject matter expert positions
known as Chairs. The CLO indicated that the new CU structure, presented in Figure 2, better
aligns the CU with the FDIC’s current organizational strategies.

Figure 2: Revised CU Organizational Structure

                                        Governing Board
                                      Executive Committee



                                     Chief Learning Officer
                                  Deputy Chief Learning Officer


                                Deans




  College of Corporate                College of Corporate                  College of
       Business                            Operations                       Leadership
                                                                           Development


Source: CU Web site.

Integration with Corporate Planning

The CLO actively participates in the planning and budget process. Specifically, CU is
involved in the FDIC’s Government Performance and Results Act and the Annual
Performance Plan processes. The CU has a performance plan and tracks and updates the
plan quarterly. The CU’s performance is also tracked by the Division of Finance (DOF) as
part of the FDIC Corporate Performance Objective process. The CU works with the HRC, the
Governing Board, and the CU Deans to design curriculum and implement programs.

Individual Training Course Planning

The CU also ensures strategic alignment by requiring a training analysis plan for proposed
course offerings. Courses are designed and reviewed in concert with the divisions and offices
and the CU. Also, Deans have responsibility to ensure that courses are aligned strategically.
Courses are based on a needs assessment, which identifies needs and knowledge and skills
gaps. Courses are planned to fill the identified gaps, so that the appropriate skill mix is
achieved for the Corporation as a whole. Further, courses are evaluated continually to ensure
they are meeting intended needs.
We reviewed the titles and objectives for selected courses presented on the CU’s Web site
and concluded that those courses reflected divisional missions and were consistent with
corporate initiatives.




                                                 4
                                                                     Evaluation Results



Leadership Commitment and Communication

    Core Characteristic: Agency leaders and managers consistently demonstrate that they
    support and value continuous learning, are receptive to and use feedback from
    employees on developmental needs and training results, and set the expectation that fair
    and effective training and development practices will improve individual and
    organizational performance.
                                                                      Source: GAO-04-546G.


The FDIC has exhibited leadership commitment and consistent communication by having
executive-level representation and involvement in the CU governance structure, adopting a
continuous learning philosophy, and establishing the Corporate Employee Program (CEP).
FDIC leaders have delivered a clear and consistent message about the importance of training
and development.

Management Commitment and Continuous Learning Philosophy

As discussed earlier, the CU is managed and monitored by executives from the highest levels of
the Corporation. The CU Governing Board meets quarterly, the Executive Board meets
monthly, and the Deans meet bi-monthly to discuss
project prioritization. Further, the CU recently       The FDIC is committed to the
                                                       training and development of its
converted the five Dean positions that were collateral
                                                       employees to build, maintain, and
duty positions into two full-time positions and one    improve individual competence in a
collateral-duty position.                              workforce that continually builds
                                                          and sustains knowledge and skills
The two full-time Dean positions are rotational           to meet the demands of today, as
                                                          well as challenges of tomorrow.
assignments that will last 18-48 months. The CLO                  --FDIC Statement of Policy
concluded that based on the demanding workload,
the duties of the Dean positions could no longer be
accomplished by collateral duty executives. Further,
FDIC executive management documented its commitment to T&D by issuing a policy statement
and approving funding and staffing levels for the CU that are discussed later in the Effective
Resource Allocation section of this report.

Corporate Employee Program

In October 2004, the COO announced the CEP as part of the FDIC’s workforce planning for the
future. The COO noted that a critical aspect in aligning the FDIC for the future was developing
a workforce with a corporate perspective that worked collaboratively to accomplish mission-
critical functions and was capable of responding rapidly to changes in workload. The COO
indicated that the CEP would:

•    provide employees with skills needed to address significant spikes in business line
     workloads that may temporarily require shifting resources across business lines,
•    promote a corporate perspective and a corporate approach to problem solving,
•    facilitate communication and the transfer of knowledge across all business lines, and
•    foster greater career opportunity and job satisfaction.

The COO tasked the CU with responsibility for implementing the CEP and for working closely
with FDIC divisions and offices to identify and administer training requirements for corporate




                                                 5
                                                                                  Evaluation Results



employees and to develop a commissioning process for resolutions and receiverships
specialists. The COO established two inter-divisional task forces, led by CU, to develop CEP
details.

The CEP will offer a cross-training program that allows Division of Resolutions and
Receiverships (DRR) employees to apply for “in-service” training in the Division of Supervision
and Consumer Protection (DSC). Crossovers from DRR to DSC will be able to obtain their
commissions in a specified timeframe. DSC examiners will also be given opportunities, such
as rotational assignments, to gain practical experience in DRR functions along with resolutions
training. A three-track commissioning process includes training and certification for risk-
management examiners, compliance examiners, and resolutions and receiverships specialists.
The CU and the three business line divisions will jointly develop training curricula for the CEP.

Communication Strategy

The FDIC has also implemented a consistent communication strategy for marketing and
informing employees of the CU. In early 2003, the CU formed a Communications and
Marketing Team, which developed a communication and marketing plan and accomplished a
number of actions, including developing the CU identity and promotional items and materials;
utilizing the CU logo and tag line on promotional items and materials; developing a CU booth
for FDIC conferences; redesigning the TCSB Web site to reflect the CU schools, programs, and
new initiatives; working with the FDIC News to publish CU articles; developing global e-mails
on the implementation of the CU and its new initiatives; and coordinating CU participation at
training conferences.

Additionally, the FDIC Chairman, COO, and CLO have issued information to FDIC employees
about the importance of the CU and the value of T&D opportunities. Table 2 presents selected
excerpts from the FDIC News.

Table 2: CU-related Excerpts From the FDIC News

  June 2002 – Chairman Powell announced plans for the Corporate University.
  February 2003 – The Chairman announced the launching of the Corporate University.
  August 2003 – The FDIC Corporate University took major steps towards establishing itself as a
  premier educational entity during the week of July 21. The five CU Deans were officially inducted and
  charged with the responsibility for their respective schools.
  January 2005 – The CLO recently reflected on the accomplishments and challenges of the Corporate
  University (CU), established in 2003 to oversee the FDIC’s employee education and development.
  Over the past year the CU, in addition to staffing up, also developed or redesigned nearly two dozen
  training programs and courses as well as managed the delivery of more than 15,000 online and
  classroom course completions to nearly 4,000 employees and other regulators.
 April 2005 – The Corporate University announced the appointment of two new Deans and the
 reorganization of its structure.
Source: OIG Review of the FDIC News.

Finally, CU has added a Communication and Marketing Specialist permanent position, which
will be responsible for delivering the CU message to the entire Corporation, representing CU at
conferences, and serving as the CU liaison with trade groups and external training
organizations.




                                                         6
                                                                    Evaluation Results



Stakeholder Involvement

  Core Characteristic: Agency stakeholders are involved throughout the training and
  development process to help ensure that different perspectives are taken into account
  and contribute to effective training and development programs. Stakeholders’ views are
  incorporated in identifying needed performance enhancements, developing and
  effectively implementing well-thought-out strategies, and helping to conceptualize and
  use balanced measures that accurately reflect the extent to which training and
  development efforts contribute toward achieving results.
                                                                     Source: GAO-04-546G.

The FDIC obtains stakeholder involvement through Governing Board and Dean meetings; the
Deans involvement in the planning and budget process; a CU divisional training assessment
process; coordination with divisional training units; post-implementation reviews of individual
courses; and employee feedback, such as the DOA Customer Survey—which included
questions addressing the CU, the Visiting Fellows Program, and individual course evaluations.

Deans’ Involvement in the Planning and Budget Process

The Deans rank courses by priority and facilitate efforts to incorporate their divisional needs
into the design and delivery of T&D. The Deans are involved in approving business plans,
ensuring alignment with the strategic plan, curriculum development, and FDIC succession
planning. The Deans have stated that they are actively involved in the prioritizing and
budgeting aspects of their respective schools. For example, during the 2005 budget process,
they participated in extensive discussions with the CU regarding the cost and value of
individual courses.

Needs Assessment Process

The CU conducted a needs assessment in 2004 with division and office executives,
managers, and professional staff using an interview format. The CU used the needs
assessment to determine knowledge, skills, and abilities needed to perform functions; identify
gaps in the workforce; and develop appropriate learning objectives and course curriculum.
CU characterized the needs assessment as a continuous process. The needs assessment
ensures that course requests are driven by the divisions and determines the correct method
of course delivery (i.e., classroom or computer-based training).

CU officials noted that needs assessments on courses have led to courses being
discontinued or redesigned. For example, CU assessed the commissioned examiner school
and determined that it was too hard to keep up with the many course updates. CU converted
the examiner continuing education program courses from classroom to computer-based
instruction (CBI) courses, which are available on-line.

The CU did not complete the DSC needs assessment because a mid-course adjustment was
made. The CU conducted the “high level” interviews with DSC senior management as
planned. However, while the CLO was reviewing the draft needs assessment report, the CU
received the results of the DOA customer survey. Several CU-related comments focused on
the lack of training for commissioned examiners. Based on these comments, the CU decided
to conduct focus groups with the examiners and first-level supervisors in the field. The CU
worked with a consultant to conduct the focus groups and to collect the data.




                                               7
                                                                                Evaluation Results



Coordination with Divisional Training Units and Subject Matter Experts

DSC, which accounts for more than 50 percent of the FDIC’s staff and training dollars, has a
Training Oversight Committee (TOC), consisting primarily of deputy directors and regional
directors, to oversee DSC’s training program and related initiatives and a Course Oversight
Group (COG), consisting primarily of assistant regional directors to oversee DSC’s core
examiner schools. Each course has a specific COG member assigned. The COG is
responsible for reporting annually to the TOC if a course needs to be revised. The COG also
includes a representative who serves as a liaison to the CU.

CU also utilizes a number of subject matter experts (SMEs) from the business line divisions
who work with the Deans to make course development decisions and who assist in the
design of internally developed courses. The SMEs also review and analyze narrative
comments from student participant evaluations to ensure that course objectives are being
met. As discussed earlier, as part of the recent reorganization, CU added eight new Chair
positions corresponding to FDIC divisions and offices to serve as full-time SME liaisons to the
business lines, advisors to clients, and to help bring all FDIC T&D programs under CU.

Customer Satisfaction Survey and Visiting Fellows Program

In addition to using individual course evaluations, the CU has solicited feedback from
employees through a 2004 DOA customer survey and through periodic reviews by selected
teams of FDIC employees, known as Visiting Fellows. The DOA Customer Survey included
CU-related questions and overall, CU received positive feedback regarding course content and
customer satisfaction. CU established focus groups to address survey comments.

The Visiting Fellows Program is based on a private-sector model in which cross-divisional
teams of high-potential professionals work on assignments to recommend solutions to senior
management for strategic business issues or challenges. The teams present their reports and
recommendations to the CU governing board for consideration and acceptance.
Table 3 presents information from selected Visiting Fellows reports.

Table 3: Visiting Fellows Report Topics
 Report Topic
 The Communication and Marketing Team’s goal was to review, revise, and begin implementation of the
 CU Communication and Marketing Strategy/Plan to increase employee awareness and participation.
 The Professional Workshops Team was tasked with evaluating the feasibility of developing and
 implementing professional staff workshops.
 The Continuing Education and Accreditation Team’s mission was to evaluate the potential benefits and
 costs of offering professional accreditation opportunities and establishing education requirements for
 selected positions.
 The Analyzing Training Investments Team was charged with identifying and reviewing resources used for,
 or involved with, T&D and determining the value received.
 The Cross-Divisional Training Team’s primary goal was to identify overlaps and redundancies in FDIC
 training programs.
Source: OIG Review of Visiting Fellows Reports.




                                                       8
                                                                   Evaluation Results



Accountability and Recognition

 Core Characteristic: Appropriate accountability mechanisms, such as performance
 management systems, are in place to hold managers and employees responsible for
 learning and working in new ways. Appropriate rewards and incentives exist and are
 used fairly and equitably to encourage innovation, reinforce changed behaviors, and
 enhance performance.
                                                                   Source: GAO-04-546G.


The FDIC has established a clear agency culture and tone at the top regarding good
performance and accountability and has established employee recognition programs such as
the Corporate Success Award (CSA) and the Contribution-Based Compensation (CBC)
Program both of which have T&D-related criteria. The Corporation has also established tools
for managing individual career development efforts such as Career Development Plans (CDP)
and Individual Learning Accounts (ILAs). The FDIC has also encouraged employees to pursue
professional and business line certification programs.

Contribution Based Awards Programs

The FDIC established the CSA program in 2003 to recognize an employee’s individual
initiative, exceptional effort and/or achievements that reflect important contributions to the
Corporation and/or its organizational components. The FDIC established the CBC program in
2004 to replace the CSA program for non-bargaining unit employees. CBC is a tiered system
with compensation determined by the level of individual employee contribution. One of the
criteria elements on which employees are assessed is learning and development, which is
defined as taking an active part in developing personal skills and competencies and applying
newly acquired skills and competencies that reflect important contributions to the Corporation
and/or its organizational components.

Career Development Plans

The FDIC established CDPs as a means for employees to develop a personal development
strategy. A CDP is a roadmap that identifies an individual’s career goals and/or
developmental needs, along with a strategy for achieving them. While employees have the
primary responsibility for managing their careers, supervisors play a key role in helping
employees create and implement a CDP. The CDP can identify short-term goals (1 year) or
long-term goals (more than 1 year). The CDP includes a self-assessment worksheet and
guidelines for completing the CDP form.

Individual Learning Accounts

The CU is starting a pilot program called ILAs. The CU will provide 200 FDIC employees up
to $2,500 annually to spend on training. Employees will be allowed to select their own course
curriculum, subject to supervisory approval. The CU has concluded that employees will be
more motivated to enhance their skills if they are empowered to make their own T&D
decisions.




                                               9
                                                                     Evaluation Results



Corporate Employee Business Line and Professional Certifications

The Corporation is also holding new employees accountable for their performance by hiring
them on term appointments and requiring that they successfully complete training programs as
part of the CEP. An October 2004 memorandum from the COO states:

       To position ourselves for the future, we will develop new criteria for hiring and training
       employees in the business line divisions. We anticipate that business lines will hire
       “Corporate Employees” (CEs) at the grade 5/7 level under term appointments to pursue
       commissioned examiner status in either Risk Management or Compliance. While the
       new CEs are pursuing an examiner commission, they will simultaneously receive some
       training in resolution and receivership functions and an enhanced orientation on the full
       scope of FDIC operations. Those who successfully complete the program will be eligible
       to compete for available permanent positions in the Corporation’s three major career
       tracks – risk management examiner, compliance examiner, and resolutions and
       receiverships specialist – as well as available positions elsewhere within the
       Corporation. They will be eligible to begin pursuing a second commission after
       completing the risk management or compliance examiner commissioning program.

In addition, the COO stated in his memorandum that current employees entering the CEP
voluntary DRR-to-DSC crossover program will be required to obtain commissioned examiner
status within a specific timeframe.

Advance Degrees and Professional Certifications

The CU has been evaluating the FDIC’s sponsorship of employee participation in graduate-
level education and/or certification programs consistent with corporate business line
operations. In April 2005, the CU issued a formal survey to determine the number of
employees who possess or who are working to earn advanced degrees and/or professional
certifications. The CU also intended to use information from the survey to update the Training
Server (TS) Learning Management System (LMS).




                                               10
                                                                        Evaluation Results



Effective Resource Allocation
  Core Characteristic: The agency provides an appropriate level of funding and other tools
  and resources—along with external expertise and assistance when needed—to ensure
  that its training and development programs reflect the importance of its investment in
  human capital to achieving its mission and goals.
                                                                     Source: GAO-04-546G.


The FDIC has provided adequate staffing and funding for the Corporation’s T&D program, and
CU has an active role in the planning and budget process. CU has developed a business plan
that includes an action plan with specific goals and target dates for completion. DOA has also
committed to the CU that the division will continue providing collateral-duty staff to coordinate
regional and field office training needs.

CU Staffing Levels

As of March 2005, CU was authorized 43 staff and had 35 staff on-board. All CU staff are
located at the FDIC’s Virginia Square facility in Arlington, Virginia. As discussed earlier, the
COO approved a new CU organizational structure in April 2005. While the reorganization did
not increase CU’s authorized staffing level, the reorganization did result in the following full-time
rotational detail positions:

        •   two Dean positions at the executive or corporate manager level, and
        •   eight new Chair assignments at the corporate manager or senior staff level.

The Dean and Chair positions are full-time, rotational assignments lasting between 18 and
48 months. These positions will not be reflected as CU-authorized staff. However, the Deans
and Chairs occupying these positions will work full-time on CU matters. The CLO noted that
this approach gives the FDIC the flexibility to discontinue the details in the event that there is not
a continuing resource need. These approved details effectively increase the number of staff
working on CU matters to 57 positions.

2004 Training and Development Budget Process

During 2005, CU had a $14.5 million internal operating budget. The CU also was responsible
for establishing the budget for approximately $3.3 million in division and office external training.
Table 4 presents a breakout of CU’s 2005 internal operating budget.

Table 4: CU Operating Budget and Actual Expenses (in millions)
  Major Expense Category                    2004 Budget     2004 Estimated     Proposed 2005
                                                            Actual Spending       Budget
  Salaries and Compensation                         $4.54              $3.42             $5.95
  Outside Services                                   5.94               3.60              5.94
  Travel                                             1.42               1.06              1.62
  Other Expenses                                      .26                .16               .39
  IT Allocation                                       .59                .58               .60
  Total                                            $12.75              $8.82           $14.50
Source: Division of Finance.

To evaluate the cost-effectiveness of the CU structure, we compared elements of CU’s 2005
operating budget to 2002 FDIC T&D budget amounts. As shown in Table 5, the FDIC’s
expenses for CU salaries and contractor expenses have decreased since 2002.



                                                 11
                                                                     Evaluation Results



Table 5: Changes in Selected CU Operating Budget Expenses (in millions)
  Major Expense Category                   2002 Budget    Proposed 2005
                                                             Budget
  Salaries and Compensation                       $7.20             $5.95
  Contractor Education Services                    9.60              5.94
  Outside Fees and Tuition (Type I & II)           3.10              3.30
  Total                                          $19.90           $15.19
Source: DOF.

As discussed later, we also compared CU’s 2005 budget amounts to the budgets of industry
benchmark organizations and the Office of the Comptroller of the Currency (OCC). We
concluded that the FDIC’s per capita T&D spending and the percentage of FDIC payroll
invested in T&D activities had decreased since 2002 and was more in line with industry
benchmarks than in 2002. Further, the FDIC’s per capita T&D spending and percentage of
FDIC payroll invested in T&D activities was reasonable in comparison to OCC benchmarks.

CU Business and Action Plans

We saw evidence that CU treats training resources as investments to be maximized. For
example, CU developed a Business Plan that included CU’s vision and operating strategy. The
Business Plan also identified critical success factors, stakeholders, products and services, and
CU financial and resource information. Finally, the Business Plan included a CU Action Plan,
which listed goals and action steps, outputs, and target dates for completion.




                                                12
                                                                        Evaluation Results



Partnerships and Learning from Others

  Core Characteristic: Coordination within and among agencies achieves economies of
  scale and limits duplication of efforts. In addition to benchmarking high-performing
  organizations, these efforts allow an agency to keep abreast of current practices,
  enhance efficiency, and increase the effectiveness of its training and development
  programs.
                                                                      Source: GAO-04-546G.



The FDIC partners externally with other federal regulators both through the Federal Financial
Institutions Examination Council (FFIEC) and on an interagency basis. In addition, the CU is
responsible for developing and conducting internal examiner education programs that are
offered to other regulators, including state examiners. The CU has benchmarked its program
costs, staffing, and operations against T&D industry sources, private-sector corporate
universities, and other government agency T&D programs.

Partnering With Others

The CU officials indicated that the FDIC partners with other regulators to fulfill examiner training
needs outside of the FFIEC training offerings. Banking industry developments such as efforts to
thwart terrorist financing and the Basel II international agreement on capital requirements result
in training needs for multiple banking regulators. The CU worked with a vendor to obtain on-line
Basel II training for FDIC examiners, and the CU has assisted other regulators in obtaining
common software licenses with the goal of conducting interagency training.

The CU also has offered training to students from other federal, state, and international
agencies as shown in Table 6.

       Table 6: CU Training Provided to Non-FDIC Employees During 2004
        Agency Type                                         Attendees
        State Banking Regulators                               440
        Federal Reserve Board                                    4
        OCC                                                     1
        OTS                                                      2
        National Credit Union Administration                    10
        Department of the Treasury                               5
        Export-Import Bank                                       7
        Foreign Bank Regulators                                 73
        Other                                                   7
        Total                                                  549
       Source: CU.

The FDIC asks states and other banking agencies for an estimate of the number of training slots
required in selected CU programs. Non-FDIC examiners often attend CU specialty examination
courses related to conducting trust and IT examinations. Additionally, the FDIC offers
remaining training slots to state banking examiners once FDIC examiners have scheduled their
training. Because the FDIC coordinates bank supervisory activities with most state banking
agencies, it is beneficial for state examiners to attend FDIC training.




                                                13
                                                                                 Evaluation Results



Benchmarking Efforts

The CU has conducted benchmarking exercises against other external organizations. The
CU belongs to the Learning and Development Roundtable, which provides benchmarking
studies and analyses to member organizations. Further, other agencies, such as the
Securities and Exchange Commission, have visited the Corporation to benchmark their own
operations.

Prior to the formation of the CU, the FDIC CU Steering Committee and subgroup members
met with leading corporate universities from Vanguard, Boeing, General Electric, the
Tennessee Valley Authority, the Army-Air Force Exchange Service, and other training entities
to gather ideas and research best practices. The FDIC relied on the results from these
benchmarking efforts in developing the CU organizational structure and curriculum.

An FDIC task force prepared a report on the CU implementation issues and corporate funding.
The task force report included benchmarking information from two sources, the American
Society of Training and Development (ASTD) and the Corporate University Xchange (CUX).
We concluded that the ASTD benchmark was based on cost factors most relevant to CU’s
operations. For example, ASTD’s benchmark includes training staff salaries (excluding
benefits), payments to outside contractors, tuition paid to outside entities, and expenditures on
training-related hardware and software. CUX’s benchmark includes costs such as facilities,
program design, delivery, instructors, vendors, technology platforms, tuition reimbursement, and
marketing materials. CUX’s benchmark does not include T&D staff salaries.

Table 7 presents information from the task force study. The table also includes relevant
information from a joint review by the Office of Inspector General and the former Office of
Internal Control Management (now the Office of Enterprise Risk Management), entitled Study of
Administrative Services—Training and Personnel (Report EM-01-001), dated March 1, 2001
(2001 OIG/OICM evaluation).

Table 7: 2002 CU Statistics and ASTD Benchmarking Data
 Benchmark                     FDIC                                      ASTD BMSa       ASTD BESTa
 Annual T&D Expenditure per    $3,063                                    $704            $1,574
 Employee.
 Percentage of Payroll         2.6%                                      2.0%            3.2%
 Invested in T&D Activities.
 Ratio of T&D Staff to FDIC    In 2000, TCSB had a ratio of 1 staff to   Benchmark not
 Employees.b                   every 143 FDIC employees.                 calculated.

                               In 2002, TCSB and CU collectively
                               had a ratio of 1 staff to every 170
                               FDIC employees.
Source: FDIC staffing and budget information and the CU task force study.
a
  The FDIC Task Force report benchmarked FDIC 2002 budget information against ASTD’s 2000 benchmarks.
b
  Information from the 2001 OIG/OICM evaluation and FDIC year-end employee counts.

As shown in Table 8, we obtained updated benchmark information from ASTD’s 2004 State of
the Industry Report, and we compared the information to CU’s proposed 2005 budget. While
the FDIC has reduced its annual T&D expenditure per employee and percentage of payroll
invested in T&D activities, the ratio of T&D staff to FDIC employees has decreased.




                                                       14
                                                                                      Evaluation Results



Table 8: 2005 CU Statistics and ASTD Benchmarking Data
 Benchmark                        FDIC                                    ASTD BMSa                ASTD BESTb
 Annual T&D Expenditure           $2,848                                  $820                   More than
 per Employee                                                                                    $2,000
 Percentage of Payroll            2.14%                                   2.52%                  4.16%
 Invested in T&D Activities
 Ratio of T&D Staff to FDIC       1 CU staff for every 108 FDIC           1 to 194 WLP staffc    Benchmark not
 Employees                        employees based on 2004 authorized                             included in
                                  staff.                                                         report.

                                  1 CU staff for every 82 FDIC
                                  employees including full-time details
                                  under reorganized structure.
Source: FDIC staffing and budget information and ASTD 2004 State of the Industry Report.
a
  Benchmark Service Organization (BMS) is ASTD’s broadest sample of benchmark U.S. organizations. During 2003,
there were 344 entities in this sample with an average number of 6,866 employees and an average payroll of $290
million.
b
  ASTD BEST represents organizations that won ASTD awards for demonstrating a clear link between learning and
performance. During 2003, there were 24 entities in this sample with an average number of 40,883 employees.
ASTD did not provide payroll information for this category.
c
  ASTD refers to T&D staff as Workplace Learning and Performance (WLP) staff.

Comparisons to Other Bank Regulatory Agencies

The 2001 OIG/OICM evaluation also presented comparative T&D information for TCSB, OCC,
and the Office of Thrift Supervision (OTS). Table 9 presents information from 2000 and 2004.

Table 9: Benchmark Information for Selected Bank Regulatory Agencies
                                           2000                                           2004
Benchmark               TCSB                OCC          OTS             CU/Full-        OCC             OTS
                                                                       Time Details
                              a
Training Staff            88                45            14               57             39               5
Agency                   6,645             2,800         1,243            4,681b         2,703            899
Employees
Ratio                    1:76              1:62          1:89              1:82          1:69            1:179
Source: 2001 OIG/OICM evaluation and 2004 CU, OCC, and OTS staffing information.
a
  TCSB included 48 regional training coordination staff.
b
  Based on October 2004 FDIC staffing level of 5,231 less 550 estimated positions resulting from downsizing.

The CU’s ratio of training staff to agency employees is within the range of the other two
regulators. Further, CU’s 2004 ratio of training staff to agency employees approximates TCSB’s
2000 ratio, even though a number of regional training coordinator positions have been
eliminated. It is worth noting that these ratios do not account for the training that CU provides
for non-FDIC employees from other federal, state, and international agencies.

Several of the Deans that we interviewed noted that while benchmarking information can be
helpful, it is difficult to obtain comparative federal regulatory training benchmark information
due to the specificity of each agency’s training efforts and agency mission-related training
requirements. Further, the Deans indicated that agency definitions of training costs can also
be subjective and difficult to compare. Nevertheless, we believe that these measures provide
an indication of the reasonableness of the FDIC’s investment in and allocation of T&D budget
and staffing resources.




                                                        15
                                                                     Evaluation Results



Data Quality Assurance
  Core Characteristic: The agency has established policies and procedures that recognize
  and support the importance of quality data and of evaluating the quality and
  effectiveness of training and development efforts. It establishes valid measures and
  validated systems to provide reliable and relevant information that is useful in improving
  the agency’s training and development efforts.
                                                                     Source: GAO-04-546G.


The CU was upgrading its T&D system, the TS, during our review. Accordingly, we did not
perform work to assess the quality of data within the system. CU is recruiting for a Visiting
Fellows team to develop TS procedures and to review the accuracy of TS data. The FDIC
currently does not have a central repository to collect and evaluate employee competencies and
skills. While CU recognizes the need for a central skills repository, uncertainty over vendor
support for the TS is causing CU to postpone implementing a central skills repository. FDIC’s
efforts to evaluate the quality and effectiveness of T&D efforts and to establish valid measures
are discussed later in this report.

Training Server Policies and Data Integrity

The FDIC’s training policy states that an LMS facilitates the efficient and effective tracking of
training and related information. The FDIC upgraded the TS in March 2005 to a Web-based
system. The TS maintains a listing and description of FDIC training courses; houses on-line
courses and student transcripts, and assists in arranging students’ out-of-town lodging
reservations. The FDIC issued Circular 2600.5, Training Server System, dated March 4,
1999, which established the TS as the system of record for T&D and established roles and
responsibilities for documenting employee participation in training programs. The circular
references TCSB and a prior version of the TS. The circular also references “Super Users,”
who at that time were TCSB and divisional staff who assisted end users in operating the TS
and who monitored information within the system. The circular indicates that Super Users will
monitor the TS to ensure data integrity and determine effective use of the system wherever
possible. We concluded that the CU needs to update this circular to reflect the establishment
of the CU and the TS upgrade. Further, the CU should revise the circular to include specific
responsibilities for maintaining the accuracy and completeness of information within TS.

A March 2004, Visiting Fellows report entitled, Analyzing Training Investments, observed that
the use of the TS system was inconsistent throughout the Corporation and that divisions and
offices had developed their own data input policies that could impact the validity of TS reports.
The report recommended establishing TS policies and procedures to ensure more effective
use of the system. The report also noted that this need had been identified in the CU’s action
plan.

CU staff indicated that the CU had provided transcript information several years ago to
selected FDIC employees and requested that employees verify the accuracy of the transcript
information. CU staff also noted that the TS has several reasonableness controls in place,
such as comparing class rosters against actual attendee lists and producing standard reports
for any discrepancies between the two. In July 2005, CU issued an expression of interest to
FDIC permanent employees to serve on a Visiting Fellows team to, among other things,
develop TS-standardized procedures and processes and to review data on the TS for
accuracy. Accordingly, we are not making a recommendation for CU to revise the TS circular.




                                               16
                                                                         Evaluation Results



Central Skills Repository

Key human capital principles include determining critical skills and competencies and assessing
competencies gaps. Competencies are descriptions of the skills and behaviors needed by staff
members and managers to effectively contribute to the overall mission and goals of the
organization. GAO has reported that the scope of agencies’ efforts to identify the skills and
competencies needed for their future workforces varies considerably, depending on the needs
and interests of a particular agency. The most important consideration is that the skills and
competencies identified are clearly linked to the agency’s mission and long-term goals
developed during the strategic planning process. Analysis of gaps between skills and
competencies currently needed and those that will be needed is critical to mapping out the
current condition of the workforce and deciding what needs to be done to ensure that the
agency has the right mix of skills for the future.
                                                      The Skill Tracking feature can provide the
The lack of fact-based gap analysis can               ability to identify skilled and experienced staff
undermine an agency’s efforts to identify and         who can perform specific functions, by:
respond to current and emerging challenges.           •    Tracking skills at a specific proficiency
                                                            level required for satisfactory performance
                                                            by position description
The FDIC is currently without a central
                                                        •   Tracking skills and proficiency levels
repository to maintain competencies                         possessed by individual employees
information. The prior version of the TS had the        •   Tracking skills and proficiency levels
capability to maintain competencies information,            associated with specific training courses
but the Corporation did not use this capability.        •   Providing Skill Gap Analyses, e.g., the
The Visiting Fellows Analyzing Training                     skills an employee would need to gain in
                                                            order to qualify for a different position
Investments report also identified TS features
that were not being used, including the Skill                   Source: Visiting Fellows Program
Tracking feature (see details in the sidebar).                  Team, Presentations and
The CU indicated that the upgraded version of                   Recommendations, Training
                                                                Investment Team, Analyzing Training
the TS has an enhanced competencies
                                                                Investments Report.
repository capability.

During an evaluation entitled, Division of Supervision and Consumer Protection’s Process for
Identifying Current and Future Skill and Competency Requirements (Report no. 05-012,
March 2005), we recommended that DSC coordinate with the Human Resources Branch and
the CU to determine the feasibility of using the TS to capture workforce planning information
related to competencies, skills, and prior work experiences for DSC employees. DSC agreed
with the recommendation.

During our field work discussions, the CLO agreed that there was a need for a centralized
competencies repository and indicated that it would be appropriate for the TS to be used for that
purpose. However, the CLO noted that following the TS upgrade, the vendor supporting the TS
had been purchased by another company, and the acquiring company had indicated that it
would only continue to support TS for a couple of years. Accordingly, the CLO stated that the
CU had postponed researching the possibility of using CU’s training system as the FDIC’s
centralized competencies repository until the CU acquires a replacement system.

We determined that the FDIC’s proposed 2006 budget includes $750,000 for the development
and implementation of a “Corporate Skills Survey/Database (to be limited to DSC, DRR, and
DIR in 2006).” If funded and implemented, this initiative will address the need for a centralized
competencies repository. Accordingly, we are not making a recommendation related to this
issue at this time.




                                                  17
                                                                                Evaluation Results



Continuous Performance Improvement
  Core Characteristic: Agency practices and policies foster a culture of continuous
  improvement and optimal organizational performance regarding training and other
  activities. Stakeholders rely on and use program performance information and other data
  to assess and refine ongoing training and development efforts; target new initiatives to
  improve performance; and design, develop, and implement new approaches to train and
  develop employees.
                                                                     Source: GAO-04-546G.


The FDIC has established a philosophy of continuous performance improvement and offers
training to improve skills and develop and maintain competencies from initial orientation of new
employees through leadership development and career management. The CU has also actively
pursued new approaches to course development and delivery. Finally, the CU employs various
means of evaluating T&D efforts and has developed a formal program evaluation strategy.

Continuous Improvement T&D Opportunities

The CU representatives noted that the FDIC’s T&D policy statement establishes the
Corporation’s commitment to the concept of continuous learning. Further, the CU
representatives noted that the CU presents course offerings and other T&D opportunities to
develop FDIC employees at every stage of their careers. Table 10 presents examples of the
CU course and program offerings that correspond to FDIC employees’ career paths.

Table 10: Categories of Courses That Evidence Continuous Learning
 Category              Description
 Corporate Knowledge   “One FDIC: A Program about our Corporate Culture”
                       “Business of Risk Management” and the “Business of Compliance and Consumer
                       Protection”
 Corporate Business    Advanced Examination School for Non-Examiners
                       Fair Lending School
                       Loan Analysis School
 Operational           Cross-divisional learning opportunities to keep employees abreast of current
                       business practices
                       Computer software training
                       Diversity Training
                       Financial analysis programs
 Leadership            Core Leadership programs
                       Foundations for Supervisors Learning Labs
                       Foundations for Supervisors E-Learning Center
 Corporate             Communications—assertiveness, briefing techniques, writing, etc.
 Recruitment and       Retirement-mid career and pre-retirement seminar
 Career Management
 FreE-Learning         SkillSoft—2,000 free courses in information technology, business skills, and online
 Course Suite          mentoring.
                       CU free online courses—these courses cover a variety of topics ranging from
                       general skills such as oversight management to more specialized courses such as
                       franchise marketing.
Source: CU Web site.




                                                      18
                                                                       Evaluation Results



Type I and/or Type II Training Offerings

FDIC employees may either pursue Type I and/or Type II training offerings. Type 1 training
involves training related to an employee’s current position (title, series, and grade), including
duties the employee is currently performing or could be expected to perform in the future.

The FDIC will assist permanent, full- and part-time employees in developing themselves for a
new position (title, series, and grade) by providing payment for Type 2 training. The purpose of
Type 2 training is to develop an employee’s knowledge and skills for a position he/she has
targeted at the FDIC. Training may be taken in a classroom, by correspondence, computer-
based, or video-based. Based on Internal Revenue Service guidelines, the FDIC will pay up to
a total of $5,250 per eligible employee, per calendar year, for allowable expenses under
Type 2 Training, subject to budget availability. The FDIC requires employees to enter into a
continuing service agreement. By signing this agreement, an employee agrees to continue in
service after training or education has been completed for at least three times the length of
training or education, or 6 months, whichever is longer.

External Leadership Development Program

The Federal Workforce Flexibility Act of 2004 requires agencies to develop leadership training
programs. Specifically, the FDIC has developed a Leadership T&D program and encourages
participation in various external programs that develop leadership potential and enhance
professional expertise and effectiveness. The FDIC pays for tuition and related travel costs.
Leadership programs are available at multiple grade levels including: the Aspiring Leader
Program (Corporate Graded (CG)-5-CG-7); the New Leader Program (CG-7-CG-11); the
Executive Leadership Program (CG-11-CG-13); the Executive Potential Program (CG-13-CG-15
and Corporate Manager (CM)-I), and the Senior Executive Fellows Program (CG-14-CG-15 and
CM-I-CM-II).

The FDIC is also participating in an external rotational program with a private-sector company.
For example, a DSC regional director is currently participating in the program for a year. The
Deputy CLO stated that while the rotational program provides valuable opportunities, CU has
been challenged with identifying private-sector companies because of banking conflict-of-
interest issues and in generating employee interest.

New Approaches to T&D

The CU has actively pursued non-classroom-based approaches to course design and delivery.
For example, the CU managed the conversion of a number of DSC examiner courses from
classroom-based courses to CBI. The CU has also worked closely with DSC to research the
feasibility of designing a Virtual Bank, which will simulate a realistic open-bank environment for
providing training. The CU plans to develop the Virtual Bank through the following three
phases:

•   Identify a consultant to determine the feasibility of purchasing an actual bank operating
    system and database to simulate failure and problem bank scenarios.
•   Develop DSC and DRR action simulations and have role players present problem banking
    scenarios in a classroom setting. Simulations will be developed for DSC and DRR.
•   Combine the operating system and virtual bank data with the action simulations to provide
    both new and experienced examiners and evaluation specialists real-world ability to solve
    problems and better prepare the Corporation for future problem bank and failure situations.



                                                 19
                                                                      Evaluation Results




The CU is working with the Office of Personnel Management to find a consultant to design the
Virtual Bank. The Virtual Bank design will be scalable, so it can be adjusted to various levels of
difficulty.

Monitoring and Evaluation

As previously stated, the CU is analyzing the DOA customer survey comments and themes
and is starting focus groups. For example, one focus group will analyze positive/negative
aspects of on-line learning and determine perceived gaps. Additionally, the CU conducted a
training needs assessment with senior management. The CU is also in the process of hiring
an educational psychologist to serve as a program evaluations expert to develop metrics for
tracking and quantifying training performance from both a qualitative and quantitative
perspective. The CU had four levels of evaluation for training.

   •   Level I or Level II evaluations are performed on both course participants and
       instructors. In addition, courses are discussed with facilitators and students to
       determine what worked and what needs improvement.
   •   Level III evaluations are performed on certain schools such as the large bank school.
       Instructors go to the workplace to see how skills are applied on the job for high-cost,
       high-vulnerability areas. The CU periodically conducts user surveys to decrease the
       cost for this type of evaluation. The CU is starting Level III evaluations this year with a
       small group.
   •   Level IV evaluations are based on Return on Investment. This method was used in the
       past for leadership development. Due to the subjectivity of this type of evaluation, the
       CU no longer performs them.

Corporation Comments and OIG Evaluation
On September 15, 2005, the CLO provided a written response to a draft of this report and
indicated that CU had no response to the report’s content. The CLO’s response is presented in
its entirety in Appendix II of this report.




                                                20
                                                                            Appendix I



Objective, Scope, and Methodology
The objective of this evaluation was to assess the:
•   degree to which the FDIC’s CU has implemented training programs and other
    developmental opportunities to help the FDIC build the competencies needed to achieve its
    mission and strategic goals, and
•   overall cost-effectiveness of the CU structure in comparison to initial goals and industry
    benchmarks.

We evaluated CU’s implementation of training programs and developmental opportunities using
a March 2004 GAO Guide for Assessing Strategic Training and Development Efforts in the
Federal Government (GAO-04-546G), which presents core characteristics for successful T&D
programs. We also performed the following:

•   reviewed relevant human capital guidance from GAO,
•   reviewed CU’s Action Plan, organizational documents, and related policies and procedures,
•   interviewed the Deputy CLO and discussed GAO’s guide for assessing T&D programs,
•   interviewed the CU Deans, Chiefs, and staff to understand their roles and views of CU,
•   reviewed budgeting and cost information related to the CU,
•   reviewed documents related to Visiting Fellows reports, TS manuals and user guides, and
•   reviewed benchmarking studies relating to training functions.

We conducted our evaluation from November 2004 to May 2005 in accordance with generally
accepted government auditing standards.

Internal Controls, Validity and Reliability of Data from Computer-based Systems,
Compliance with Laws and Regulations, the Government Performance and Results Act,
and Fraud and Illegal Acts

We evaluated the effectiveness of management controls by reviewing policies and procedures,
organizational charts and position descriptions, and the CU reorganization plan and by
interviewing FDIC executives and employees directly involved with the CU.

During the course of our review, the CU was in the process of changing to a new training
system. Therefore, we did not assess the reliability of computer-processed data. However, our
report conclusions were not based on computer-processed data.

The Federal Workforce Flexibility Act of 2004, section 201, requires agencies to develop training
to accomplish performance plans and strategic goals. The FDIC is meeting this requirement
through the CEP by providing the external leadership development program and by offering
Type I and Type II training to its employees.

The FDIC’s Annual Performance Plan includes a discussion of CU. Further, the FDIC 2004
Corporate Performance Objectives included a performance objective to carry out the CU Action
Plan.

The nature of our evaluation objectives did not require that we assess the possibility for fraud
and illegal acts. However, no instances of fraud and illegal acts came to our attention during
our evaluation.



                                                21
                       Appendix II



Corporation Comments
